                Office of Inspector General




October 14, 2004

SUSAN M. PLONKEY
MANAGER, FORT WORTH DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Fort Worth District
         (Report Number DR-AR-05-003)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southwest Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Fort Worth District (Project Number
04YG024DR003). The information in this district report will be included in a report to
the Southwest Area Vice President.

                                                   Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Southwest Area had 3,876 pieces of vending equipment that
generated over $87 million in revenue, of which the Fort Worth District maintained
14 percent (545) of the total area machines that generated 13 percent ($11.1 million) of
the total area vending revenue. During the first quarter of FY 2004, the Southwest Area
had 3,989 pieces1 of vending equipment that generated over $23 million in revenue, of
which the Fort Worth District maintained 14 percent (5642) of the total area machines
that generated 13 percent ($2.9 million) of the total area vending revenue.




1
    The Southwest Area had 113 additional vending machines during the first quarter of FY 2004.
2
    The Fort Worth District had 19 additional vending machines during the first quarter of FY 2004.

       1735 N Lynn St
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-003
 Fort Worth District


                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 545 vending machines operating in the
Fort Worth District during FY 2003, 108 were classified as obsolete based on Postal
Service guidance, while the remaining 437 were classified as current equipment. For
the first quarter of FY 2004, 564 vending machines were operating in the Fort Worth
District, of which 108 were classified as obsolete, and the remaining 456 were classified
as current equipment.

During our audit, we visited Postal Service facilities, interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.3 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Fort Worth District was conducted from July through
October 2004, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of

3
    Obsolete equipment was not included in the minimum revenue analysis.




                                                         2
Self-Service Vending Program –                                                                         DR-AR-05-003
 Fort Worth District


approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Fort Worth District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Fort Worth District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Fort Worth District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Fort Worth
District indicated that overall the machines were operational and easily accessible.

Redeployment of Vending Machines

Fort Worth District officials could improve their process for redeploying vending
equipment that does not meet Postal Service’s minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 61 percent (268 of 437) did not meet the minimum revenue requirements.
Vending equipment sales were approximately $2 million, which was significantly
less than the minimum revenue requirement of $4.1 million. As a result, the
Fort Worth District may have missed revenue opportunities of approximately
$664,000 to $2.1 million by not redeploying this equipment.4

Additionally, during the first quarter of FY 2004, our review of the vending equipment
revenue reports indicated that 59 percent (271 of 456) did not meet the minimum
revenue requirements. Vending equipment sales were approximately $423,000, which
was significantly less than the minimum revenue requirement of $886,000. As a result,
the Fort Worth District may have missed revenue opportunities of approximately
$463,000 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,

4
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $664,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $2.1 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                   DR-AR-05-003
 Fort Worth District


Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials did not initiate redeployment action for the underperforming vending
machines during FY 2003 and the first quarter of FY 2004 because they did not believe
it was cost effective. District officials informed the OIG that it was not cost effective to
redeploy underperforming machines because the machines generated some revenue.
Further, officials told the OIG that if machines were removed, they would be stored in a
warehouse where they would not generate any revenue. Additionally, district officials
were concerned about the potential adverse impact to customer service if the machines
were moved. Previous attempts to redeploy underperforming equipment were met with
resistance from postmasters because the nonavailability of vending equipment in their
facilities would impact customer service in the rural locations. However, by not taking
action to redeploy under performing equipment, the district could miss revenue
opportunities during the remainder of FY 2004.

District officials stated they did not have a problem with the Postal Service’s
methodology used to establish minimum revenue requirements; however, they
considered this criterion as guidance to manage the Self-Service Vending Program.
District officials stated that although vending machines may not have met minimum
revenue requirements, they did generate some revenue and were available for
customers.

We discussed the results with Fort Worth District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans were
being developed to reassess vending locations based on an analysis of vending
operations and receipt of 32 automated postal centers.5




5
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                       4
Self-Service Vending Program –                                             DR-AR-05-003
 Fort Worth District


Recommendation

We recommend the Manager, Fort Worth District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters
   of vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed that the Fort Worth District has vending equipment that does not
meet the minimum revenue requirements. However, they disagreed with the amount
reported as missed revenue opportunities. District officials view the minimum revenue
requirement for underperforming equipment as a tool to make business decisions when
relocating or removing low producing machines. Management also agreed the process
to remove/relocate low performing machines in smaller offices could be improved, but
that other costs must be considered. In addition, management stated the retail
manager will review the Equipment Relocation Analysis Report from VESS to assess
the opportunities and the impact of relocating equipment on a monthly basis. Each site
will be reviewed on an individual basis to determine if the equipment needs to be
removed or relocated based on cost and other factors. The retail manager will notify
Managers of Post Office Operations (MPOOs)/Postmasters of low performing
equipment. The MPOOs/Postmasters will be given the opportunity to respond to the
retail manager and present a business case concerning potential relocation or removal.
Management’s comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding. Regarding management’s
disagreement that they missed revenue opportunities, we determined that the term
missed revenue opportunities was appropriate as our audit focused on vending revenue
as reported in VESS and as compared to established minimums. The Postal Service
measures the performance of vending operations by considering revenue generated;
accordingly, we believe the term missed revenue opportunities appropriately represents
the revenue-related performance measure within the confines of assessing individual
machines only. Management’s action taken and planned should correct the issue
identified in the finding.

Use of Obsolete Equipment

Regarding management’s disagreement that they missed revenue opportunities, we
determined that the term missed revenue opportunities was appropriate as our audit
focused on vending operations. The Postal Service measures the performance of




                                           5
Self-Service Vending Program –                                                                   DR-AR-05-003
 Fort Worth District


vending operations by revenue generated; accordingly, we believe the term missed
revenue opportunities appropriately represents the performance measure and that a
direct correlation exists between lost revenue and equipment not meeting minimum
revenue requirements within the confines of assessing the self-service vending program
only.

In FY 2003, Fort Worth District officials continued to use 108 obsolete machines and
possibly incurred maintenance and repair expenses, although Postal Service policy
discontinued the maintenance and repair support for the machines in 2000.6 Our review
of vending equipment revenue reports showed that only two of the machines met
minimum revenue requirements. Additionally, during the first quarter of FY 2004, our
review of vending equipment revenue reports indicated that 96 percent (104 of 108) of
the machines did not meet minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because of concerns regarding the potential adverse impact on customer service since
replacement equipment was not available. As a result, during FY 2003 and the
first quarter of FY 2004, the district possibly incurred maintenance and repair expenses
that may have exceeded the revenue generated by continuing to operate and maintain
the obsolete machines. We were unable to determine the amount of repair and
maintenance expenses associated with the machines because the Postal Service does
not capture the data for each machine.7

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal centers are deployed to district locations.


6
  This Maintenance Management Order (MMO) supplements MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
7
  We plan to address this issue in a capping report to Postal Service Headquarters officials.




                                                       6
Self-Service Vending Program –                                                DR-AR-05-003
 Fort Worth District


Recommendation

We recommend the Manager, Fort Worth District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and the recommendation. The District Manager
stated the district has 108 obsolete pieces of vending equipment. However, they do not
agree that it would be financially feasible to remove all of the obsolete equipment at
one time and plan to remove the equipment through attrition. The Retail Manger
notified district maintenance officials on September 17, 2004, that effectively
immediately, obsolete equipment must not be repaired, but must be removed and sent
to maintenance for proper disposition.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. Management’s
action taken and planned should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Karen Schott
    Gary Holcomb
    Pam Gleason
    Steven R. Phelps




                                            7
Self-Service Vending Program –                   DR-AR-05-003
 Fort Worth District


               APPENDIX. MANAGEMENT’S COMMENTS




                                 8
Self-Service Vending Program –       DR-AR-05-003
 Fort Worth District




                                 9
Self-Service Vending Program –        DR-AR-05-003
 Fort Worth District




                                 10
Self-Service Vending Program –        DR-AR-05-003
 Fort Worth District




                                 11
